Department of Health and Human SelVices
        OFFICE OF
   INSPECTOR GENERAL




   SERVICES TO PERSONS WITH
 CO- OCCURRING MENTAL HEALTH
AND SUBSTANCE ABUSE DISORDERS
        PROVIDER PERSPECTIVES




                 n\7l('es.

                             JU
               Jit
          :J.cf)d'za
                                  GffBS BROWN
                             Inspector General

                                  JU     1995
                                OEI- 05-94-00150
                        OFFICE OF INSPECTOR GENERA

 The mission of the Office of Inspector General (OIG), as mandated by Public Law 95- 452 , as
 amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
 programs as well as the health and welfare of beneficiaries served by those programs. This
 statutory mission is carried out through a nationwide network of audits , investigations , and
 inspections conducted by three OIG operating components: the Offce of Audit Services , the
 Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs

. correct them.
 the Secretary of HHS of program and management problems and recommends courses to


                           OFFICE OF         AUDIT      SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectivenes of departmental programs.


This report was prepared under the direction of Wiliam Moran , the Regional Inspector
General for the Offce of Evaluation and Inspections , and Natalie Coen , Deputy Regional
Inspector General , Office of Evaluation and Inspections , Region V. Participating in this
project were the following people:
Region V                                                                    Headquarters
Barbara Butz                                                                David Wright
Nora Lynn

To obtain a copy of this report , call the Chicago Regional Office at 312/353- 4124.
 Department of Health and Human SelVices
         OFFICE OF
    INSPECTOR GENERAL




   SERVICES TO PERSONS WITH
 CO- OCCURRING MENTAL HEALTH
AND SUBSTANCE ABUSE DISORDERS
         PROVIDER PERSPECTIVES




               snvrC'l'J'.


                             JU   GffBS BROWN
                             Inspector General
          -1

               rtla
                                  JU      1995
                                OEI- 05- 94-00150
                         EXECUTIVE SUMMARY

PUROSE
Describe the experiences of staff that work directly with people who have co-occurring
mental health and substance abuse disorders.

BACKGROUN
The National Comorbidity Survey, a large general population survey conducted from
1990 to 1992 , estimates that in a given year , from 7. 6 to 9. 9 milion Americans suffer
from co-occurring mental health and substance abuse      (MH/SA)    disorders. Estimates
of co occurrence in non-surveyed populations (institutionalized or homeless persons
youth , and adults 55 and over) brings the total to 8.3 to 10. 8 milion individuals.

This population is heterogeneous in terms of types of mental disorders , levels of
involvement with alcohol and other drugs , and degree of functioning. Few receive
integrated treatment in a single setting, yet without it , response to treatment is likely
to be poor. Information on effective treatment modalities is stil emerging and co­
occurring          disorders are not addressed in most higher education or on- the-job
                 MH/SA

training curricula.


The Public Health Service (PHS) funds a number of servces and activities relevant to
this population , especially in the Substance Abuse and Mental Health Servces
Administration (SAMHSA), where their national advisory council established a work
group on services integration which is currently focusing on this issue. Two programs
are targeted at this population (Projects for Assistance in Transition from
Homelessness and a special demonstration program). Clinical education , training, and
technical assistance activities or programs are also funded by SAMHSA. The National
Institutes of Health , Health Resources and Services Administration , Indian Health
Servce , Health Care Financing Administration , and Social Security Administration
fund servces that could serve this population. The extent to which any of these
prognims actually reach people with co-occurring MH/SA disorders is unknown.

This report conveys the experiences and perspectives of 71 people working in 30
community-based programs , located in 20 States , that treat people with co-occurring
MH/SA disorders. Discussions with SAMHSA revealed that information on front- line
workers was of interest and would complement the programmatic information coming
from the special demonstration program mentioned above. Later in the study,
SAMHSA staff expressed interest in knowing about the programs in which these
respondents work. Hence we have produced a companion report (OEI- 05- 94- 00151)
with that information.

                                                                             , "

                                                                               "




The combination of this survey analysis and the program descriptions provides as
complete a picture as possible about issues , successes , and problems in the emerging
field of treating this population.

FININGS€
Most front- line staff work in new programs and have little education, training, or prior
exerience specifcally related to co-occurrng mental health and substance abuse
disorders.

The majority of the programs in our sample are 3 years old or less , and 60 percent of
the front- line staff have worked with this population for 3 years or less. Most front-
liners work in teams , and are responsible for case management , counseling, or
education. They lack formal education and training specifically on co-occurring
MH/SA disorders. Many feel overburdened by the demands of the job and see
burnout as a real threat.

The fit challenge that front- line   staff face in their working environment is that their
clients have a host of serious problems in addition to mental illness and substance abuse.

Front- line staff report that many of their clients have severe , long-standing ilnesses.
Other common characteristics of their clients that they report include histories of
homelessness , contact with the criminal justice system , and dysfunctional family
backgrounds. Many clients are described as resistant to treatment.

Front-line staff have many goals for clients,   with a long- term   view of recovery.

Respondents named several goals they have for clients , such as long- term sobriety and
increased self-sufficiency. They also emphasize that for most clients recovery " js a
relative term and wil take years to achieve. When asked to name the most important
personal attributes needed to be effective , they most frequently said patience.

Front-line staff describe their approaches to clients as holistic, individualized, flexle,   or
creatie. They say that establishing trt with clients is ke, but very difcult to do.


The majority of staff say they are trying to address many client needs besides those
related to mental ilness and substance abuse , primarily through case management.
They are tryng to be flexible and creative in adapting their approach to meet the
individual needs of clients. They say that building trust and a personal relationship
with clients is key to making progress but very difficult to do.

Front-line staff defne success for most clients as making incremental progress over time.€

Given the severe , longstanding problems of clients , staff view treatment for most as an
ongoing, lengthy process. They take satisfaction from seeing small steps toward
recovery such as improved compliance with medications or reduced substance use.
RECOMMNDATION
The Public Health Service should develop a plan to increase knowledge about co­
occurg mental health and substance abuse disorders and their treatment among
clinicians, other professionals, and service providers.

Front-line staff working with this population face tremendous challenges. Their clients
are often seriously il and highly dysfunctional , and staff lack the education , training,
and experience needed to work effectively with them. Furthermore , the number of
such clients is reportedly growing nationwide.

We recommend that PHS develop a plan to use its arsenal of education , training, and
technical assistance resources more strategically on behalf of clinicians , other
professionals , and the programs they work in. In this effort , we suggest that PHS
collaborate with other Federal agencies with relevant services , including the Social
Security Administration and the Departments of Veterans Affairs , Housing and Urban
Development , and Justice. We also suggest that they consult with grantees , national
associations , professional organizations , experts , researchers , clinicians , and other
practitioners. Finally, we suggest that existing technology be used as much as possible
to produce and disseminate curricula and educational materials at a reasonable cost.

AGENCY COMMNT

The Public Health Service concurred with our recommendation. Their comments are
attached as Appendix A. They also submitted a number of technical comments on
which we have based some revisions to the text.




                                            iii
...............................                                                       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                                                                  . . . . . . . . . . . ..




                                                                                                    TABLE OF CONTENTS€
                                                                                                                                                                                     PAGE€
          EXECUIV SUMY€
          INODUCTON. .                                                                                                                                               . . . . . . . . . . .. 1€
          FININGS. .                                                                                                                                        . . . . . . . . . . . . . . . . . 5€
            . Background and                                                                        experience of front- line staff. . . . . . . . . . . . . . . . . . . . . . . . . . 5€

            . Characteristics of their clien ts                                                                       ..... . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9€
            . Their goals for clients. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . €

            . Their approaches to                                                                       serving clients. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...       10€

            . Their views of success. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . €




          RECOMMNDATION. . . . . . . . . €
          APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                  . . . . . . . . . . . . . . . A-€
                                                                                          , .€




                                         INTRODUCTION


 PUROSE
 Describe the experiences of staff that work directly with clients with co-occurring
 mental health and substance abuse disorders.

 BACKGROUN
The National Comorbidity Survey, a large general population survey conducted from
1990 to 1992 , found that 53 percent of respondents with alcohol abuse or dependence
over their lifetime also had a mental disorder over their lifetime , while 36 percent had
a lietime ilicit drug use disorder. Fifty-nine percent of the respondents with a history
of ilicit drug abuse or dependence over their lifetime also had a mental disorder over
their lifetime , and 71 percent had a alcohol use disorder over their lifetime. In any
given year , Survey data reflect that an estimated 7. 6 to 9. 9 milion persons suffer from
co-occurring mental health and substance abuse (MH/SA) disorders.

The literature strongly emphasizes the heterogeneity of this population in terms of
tyes of mental disorders , levels of involvement with alcohol and other drugs , and
degree of functioning. People with these co-occurring disorders can be very difficult to
treat , with chronic and severe medical , social , and emotional problems and particular
vulnerability to relapse. Few receive integrated treatment in a single setting, from a
single clinician who addresses both disorders at the same time. Yet jf treated for only
one disorder , response to treatment is likely to be poor.

Information on effective treatment modalities is stil emerging and few studies
document effective service delivery, treatment approaches , and outcomes. Also , co­
occurring MH/SA disorders are not addressed in most higher education or on- the-job
training curricula.€


The broad social consequences of failing to adequately treat this population include
homelessness , violence , crime , the spread of HIV/AIDS , tuberculosis , and sexually
transmitted diseases , with their attendant demands on hospital emergency rooms and
the public welfare and criminal justice systems.

Programs and Activities for Persons with Co- Occurg MH/SA Disorders

In the Department of Health and Human Services (HHS), the                                        Public Health Service
funds many services and activities relevant to this population.

    1 Since NCS data reflect only the household population
                                                                      ages   15-   a tre picture of the   magnitude of this problem
must reflect an additional. l   milion    insritutional population       million homeless 05 millon   youth age    ()14 and.4 to
6 millon adults age   55   or over,   for a lolal estimated    to    10. 8 millon individuals.
  The        Substance Abuse and Mental Health SelVices                                   Administration          (SAMHSA)       has many
  programs that are directly or indirectly targeted to serve people with co-occurring
  MH/SA disorders. The national advisory council of SAMHSA has a working group on€
  servces integration which is currently focusing on this issue. A SAMHSA work group€
  has also been created to address this population.

 Two SAMHSA service programs are specifically targeted at people with co-occurring
 MH/SA disorders. Projects for Assistance in Transition from Homelessness (PATH) is
 a formula grant program to States and territories with a specific legislative mandate to
 serve this population. Funded at $29 milion in Fiscal Year (FY) 1994, PATH
 provides mental health and other services to homeless individuals and at-risk
 populations that are severely mental1y                                ill or have co-occurring MH/SA disorders.
 Secondly, a demonstration program for homeless individuals with such disorders is
 overseen jointly by the Center for Mental Health Services (CMHS) and the Center for
 Substance Abuse Treatment (CSAT). Sixteen providers received grants in September
 1993 totalling $4 milion to develop and test models of effective assessment and
 intervention for this population. In FY 1994 , several providers wil receive continuing
 grants to undertake a formal evaluation of their specific service                                               delivery modalities.


 Other SAMHSA programs include the mental health services block grant ($278€
 milion for FY 1994) and the substance abuse prevention and treatment block grant€
 ($1.1 bilion in FY 1994). Nine Access to Community Care and Effective Services and€
 Support demonstration grants ($19.4 milion) are testing services integration€
 approaches for persons with severe mental ilnesses and/or substance abuse and the€
 Community Support Program has funded demonstration projects. SAMHSA also
funds various clinical education , training, and technical assistance activities or€
programs.€

Elsewhere in HHS                  , the            fund research and services€
                                             National Institutes of Health

demonstrations through the National Institutes of Mental Health , Drug Abuse , and€
Alcohol Abuse and Alcoholism. The                                    Health Resources and                    SelVices Administration€
funds the Health Care for the Homeless Program and Ryan White programs for€
persons with HIV/AIDS. The                       funds services for American€
                                                         Indian Health SelVice

Indians and Alaska Natives. The                               Health Care Financing Administration                           funds€
Medicare and Medicaid for health care and related €             Social Security€             services. The

             funds the Social Security Disability Income and Supplemental Security€
Administration

Income programs.€

Outside HHS , the                 Department of Veterans Affairs        Department of Housing and
                                                                                         and the

Urban Development                   (HUD) both deal with this population in their homeless as well as€
other programs. The                                       deals with this population via the courts
                                          Department of Justice

prisons , and jails.

While the above list of agencies and programs is long, we do not know the extent to€
which their servces reach this population. We did not find national data on the€
number of such clients served by any of these agencies and their programs.€
Scope and Methodology


This report describes the experiences and perspectives of people working directly with
clients in community- based (as opposed to inpatient) programs established specifically
to treat people with co-occurring MH/SA disorders.

One impetus for this study was previous studies which we conducted on services to
homeless people , especially those with mental i1ness or substance abuse , and
community mental health services. In those studies , respondents pointed to persons
with co-occurring MH/SA disorders , specifically, as underserved both in homeless and
traditional service programs.

A second impetus was the SAMHSA joint demonstration program noted previously.
In our early discussions with SAMHSA staff, we learned that a report on the first year
of the demonstration was planned that would address certain aspects of program
structure , operation , and effectiveness. It would not , however, focus specifically on the
staff in these programs - the background , experiences and perspectives of those who
work day- to- day with this difficult population. We learned that this type of
information was also of interest within SAMHSA and would serve to complement the
programmatic information coming from the special demonstration.

In addition ,our early reading and discussions with more than 25 experts in the field
confirmed that an increasing amount of literature addresses the nature of co-occurring
MH/SA disorders and treatment approaches , but that there is very little information
about front- line staff. These experts also expressed interest in this type of
information.

In the second phase of the study, we spoke with 71 people in 30 programs , identified€
through references in the literature , descriptions of the special demonstration
programs and other Federal programs , and suggestions from experts. Almost all of
the programs treat persons with co-occurring MH/SA disorders exclusively, although a
few also have some clients with mental ilnesses or substance abuse problems only. At
each program , we spoke with a supervisor or manager , and one or more staff working
directly with clients in treatment-related activities (as opposed to outreach). Most
discussions were by telephone; we visited two programs to conduct intervews in
person.

The programs are located in 20 States2 and are very diverse both demographically
and programmatically. The 28 provider agencies running the programs include: 17
mental health providers , 3 substance abuse providers , 4 private non- profit social
service agencies , 3 hospitals , and a veterans service agency. A quarter of the
programs were located in metropolitan areas (cities over 500 000), 15 percent in small
cities or rural areas , and the rest in medium size cities.

   2 Alaska California, ConnecticlI, Delaware
                                            , Florida, Georga, llinois, Indiana, Missouri, Nebraska, New York;
Ohio, Oklahoma, Oregon, South Carolina, Texas, Vennont,   Virgnia, WLSconsill and   Wyoming.
                                                         ..                                                  . .          . ..
                                                                                                                      . ......




We did not explore the funding of these programs in depth. However , we deliberately
included seven recipients of CSAT- CMHS demonstration funds , and we found two
programs that receive PATH funding. Other sources of funding reported by the
managers we talked to were Federal funding from HUD , the National Institute on
Drug Abuse , CSAT , and Medicaid or Medicare reimbursement; State or county
mental health or substance abuse funds (some of which may be Federal block grant
dollars); special State " community support services " funds (one State); client fees; and
United Way or other private donations.

Though we did not delve deeply into the origins of these programs , our strong
impression is that the major impetus in their development was the recognition by key
staff that this segment of their client population was growing, and that their needs
were not being adequately met by existing services.

Chart A shows the programs by type , as                 CHAT A
described to us by respondents , and the                                                               REPONDENT
respondents by type of job responsibility.
Readers wil note that the 46                             PROGRA                     Magcn                   Fruo(            Boll
                                                                                       Onl            I lio Onl            MgrlF        TOTAL
respondents working directly with clients
  front- line " staff) fall into two                     6 Residenti                                                             3.
categories. Thirty- two people have                      8 Out-Patient
front-line responsibilities only. Fourteen
people combine front- line duties with                   10 Day Tmt 

                                                         Pania Hoop.                                                             3 .

supervsion or management.
                                                         5 CI-ty'
We asked all 71 respondents to describe                  1 Olh
the clients in their programs , their goals
                                                         TOTAL
for clients and how they are trying to
achieve them , and their success in                           COnJus trallL
                                                                                                                         fu
                                                                                               or
                                                                                                              cc tr
                                                              Singk room    occu
meeting those goals. We asked the 46                          co17         rn he
                                                                                        hold
                                                                                           cm.
                                                                                                    wi di     maga


staff with front-line responsibilities
specifically, about their prior job
experience , education , and training. We
did not verify the information respondents gave us or evaluate these programs.

We have also issued a companion report entitled " Services to Persons with Co-
Occurring MHiSA Disorders: Program Descriptions " (OEI- 05-94- 00151), which
provides descriptions of the 30 programs whose managers and front-line staff we
intervewed. The combination of this survey analysis and the program descriptions
provides as complete a picture as possible about issues , successes , and problems in the
emerging field of treating persons with co-occurring MH/SA disorders.

We conducted this inspection in accordance with the 
                   Standards for Inspections                        issued
by the President's Council on Integrity and Efficiency.
                                    FINDINGS

MOST FRONT- LIN STAF WORK IN NEW PROGRAS. THY HAVE
LIT EDUCATION, TRING, OR PRIOR EXPERIENCE SPECIFCALY
RELATED TO CO- OCCUING MENTAL HETH AN SUBSTANCE
ABUSE DISORDERS.

Th mljority of front-line staff work in relatively new programs. Half of front-line staff
have worked clients with co-occurg MH/SA disorders, specifcally, for       years or less.

Sixty percent of the   programs   in our sample are 3 years old or less. Only four
programs are more than 5 years old. Sixty percent of the 46 front-€line staff are
working in programs 3 years old or less. One quarter work in programs that are 1€
year old or Jess.

We asked front- line staff how many years they have worked with clients with co­
occurring MH/SA disorders , specifically (as opposed to working with them as part of a
broader client population). One half said they have worked with this population for 3
years or less; another 25 percent have worked with them for 4 or 5 years. As a group,
the 14 people with both management and front- line duties tended to have more years
experience with these types of clients than strictly front- line staff.

Most front-line staff report being responsible for case management, couneling of some
sort or education. They   work as part of multi-disciplinary staff teams and most of their
work is with groups of clients.

We asked front- line staff to generally describe their job , and where it fit in with the
jobs of other staff in their programs.

It is diffcult to cleanly and distinctly describe their job responsibilities because many
of them are involved in such a variety of activities , and their titles , per se , usually do
not tell the entire story of what they do every day. For example , a " case manager
might be a nurse on a continuous treatment team who besides making sure clients get
the servces they need , administers medications and counsels clients in some capacity.
We contacted one program director as she was cooking Junch with clients; of herself
and other staff, she said: " We all do everything around here. We cook , we drive the
van , we go on outings with clients. " Thus the following descriptions are meant to
provide only a general picture of what front- line staff are doing.

About 60 percent of front- line staff described themselves as case managers (13) or
counselors (14). Seven of the case managers are people who combine management
responsibilities with handling a small caseload. We did not ask respondents to define€
or describe " case management " in their programs in any detail. However we found
that case managers are the most likely to be dealing with individual clients , monitoring
                                                                                                   , "
     ..




treatment plans and connecting them with other services. We also found that case
managers may be involved in counseling, education , or social activities.

The duties that the counselors described ranged from individual and group counseling
in mental health or substance abuse , to vocational rehabilitation or job counseling, to
education and , in some cases, involvement in 12-step or 12-step based groups.

The other 40 percent of respondents include: nurses , most often responsible for
medication management (under the supervision of a psychiatrist) and education; and
others with a variety of titles 3 who report being involved in counseling of some sort
social or recreational activities , or anci1ary services such as transportation.

Front- line staff spend most of their time with groups of clients. Also , 75 percent
described working as part of a multi- disciplinary staff team rather than independently.€
This may in part account for the variety in terms of job duties , as staff with different
expertise combine forces in counseling or education sessions cover for each other
and participate together in social and recreational activities with clients. Teams may
consist of only two or three people , or more. They most often are comprised of a
manager or supervisor (who may also carry a small caseload), case managers
counselors , nurses , and a part-time psychiatrist; some of the other staff on teams that
were mentioned included an art therapist , vocational or recreational rehabilitation
specialists , social workers , mental health aides , and a secretary.

Despite receiving college degrees in field such as psychology and couneling, few front- line
staff have been educated or trained specifcally on co-occurrg MH/SA disorders.

Chart B shows the highest educational                                       CHAT B

level attained by front- line staff.
                                                                                     IDGHEST              REPONDEN
                                                                                   EDUCATIONAL             REORTIG
The most common fields in which€                                                        LEL                 (N='46)
people received college degrees are
                                                                             Higb school diploma            4 (9%)
psychology and counseling, including€
rehabiltation counseling, but they also
                                     Bachelor's   degr              13 (28%)
received degrees in human services                                           Mater's degree                 23 (50%)
health sciences , recreation therapy, and                                          Socin Work: 


organizational communications. In                                                  Ot


addition to their degrees , 22 people                                        NuISg (R, LPN,                 5 (11%)€
reported having some sort of special                                         LVN

certifica tion or license , 12 of them for€                                  Other: Psychologit                (2%)
drug and alcohol counseling.




    3 such as: substance abllse supervisor; panial hospitalization specialist;
                                                                          bslance abuse or dual diagnosis specialist;
recrealionallherapy coordinator; communiry support worker; human services technician; consultant (to a continuous
treatment team).
                                           , "





As might be expected ,  we found that the educational level of the 14 people with
management responsibilities , as a group, was somewhat higher than that of staff with
front-line duties only. For example , the psychologist falls into that group, and a higher
proportion of the group has master s degrees. Conversely, the four individuals with
high school diplomas have front- line                       duties only.


Notably, half of the staff with only front-line duties said they are currently pursuing€
additional education , licensing, or certification , from Associate Degrees to PhDs. This
compares with 2 of the 14 persons with some management duties.

Eleven respondents revealed that they are in recovery from alcoholism or drug
addiction. Two of the 11 reported combining supervision                                  with case management; 9
reported front- line duties only including counseling, social and recreational activities
or transportation. This group was most likely to report having a high school diploma
only, although just as many had bachelor s or master s degrees. Four of them have
experience in business , as well as in social services of some sort.

About half of the front- line only staff said they have had some training on co-occurring€
MH/SA disorders on the job , for the most part in workshops , but they were vague
about exactly how much training they have had and specifically what was covered. We
are not convinced that the majority of this training was on co-occurring MH/SA
disorders , per se. In the managerial group, five people spoke more convincingly of
attending conferences or other training specifically on co-occurring MH/SA disorders.
Exosure to national experts in the field led two people to take leadership roles in
developing programs. One program director , a person who received her Master s in
Social Work through a grant from the National Institute on Alcoholism and Alcohol
Abuse , said that 4 years ago (co-occurring disorders) was a new concept. Very little
was written and there was no research. I went to (an expert's) workshop and it got€
me thinking about what might be done.

Front-lin staff credit their job exerience more than their education or training with
helping them work with clients with co-occurg MH/SA disorders.

We asked front-line staff what has been most helpful to them in terms of their
education , training, or job experience in working with clients with co-occurring MH/SA
disorders. Twenty people , including almost two- thirds of the 32 with front- line duties
only, credited their past or present job experience , including " my supervisor " with
being the most helpful.4 Comments such as " I learn a lot from my co-workers " or
 clients taught me " were common. Also , people who have worked with
developmentally disabled clients in the past are likely to have found that experience
helpful in their current jobs.





    4 Such comments a/so came from the 

                                                  11   people who reported no pdar job   exrience in either the mental health or
sustane abuse fields, one third of this group of respondents.
                                    , "





Ten people (a fifth of all front- liners) said that their education or , especially, on the
job training had helped them the most. Others were more critical: " Formal education
is not preparing people very well for this work " or " Textbook theories don t matter at
all. What matters is the experience and the desire to help people.

Eight of the people who are in recovery said that this was most helpful to them.
Several others mentioned personal characteristics as being helpful: commitment to
clients or motivation to help people , an outgoing personality, a motivation to learn on
the job , and even a sense of humor.

We asked all 71 respondents , managers and front- line staff alike , what education and
training is needed to work effectively with clients with co-occurring MH/SA disorders.
We heard a strong emphasis everyhere on the need for direct experience with
clients. Respondents generally advocate a solid academic grounding in the theories
and practices of both fields , as well as co-occurring MH/SA disorders per se , but they
clearly believe that nothing surpasses experience on the job. Many of them advocate
practicums that are attached to academic curricula , saying that " there s nothing like
being there. " A minor theme running through these comments seems to be that to be
effective , one needs to          a philosophy in addition to technical expertise , to
                              develop

internalize what one does , to really become invested in the clients and care about
them.

While appearing challenged and energed by their jobs at the moment, many front-line
staff also see burnout as a real threat.

We asked front- line staff if they had the resources , supervision , and support they need
to do their jobs. We heard some complaints , and quite a few wishes for more staff
space , or materials , but the vast majority say they are getting the supervision and
support they need. Sixty percent credited being on a team with giving them the€
support they need , and 34 percent credited their supervisor; some credited both.

Nevertheless , our question What do staff working with this population need in order
to prevent burnout?" elicited the most spontaneous and vigorous responses of any
question we asked. This was clearly a question near and dear to the hearts of these
respondents. Their answers included: being on a team and having supportive co-
workers (mentioned by all 14 people with both management and front- line duties),

setting boundaries between personal lives and work , maintaining perspective , making
sure to take time off and get away, maintaining personal health                     and stability, getting€
good supervision , and having access to education and training.€

Many clearly feel pressured and overburdened by the demands of the job. With a lack
of education and experience in this field , they are feeling their way in trying to find the
right kind of approach to reach each client , and they are concerned about the lack of


   5 This may be a controversial topic- Some respondenls were not sure aboUllhe importance of being in
                                                                                                         recovery.
progress made by so many clients. One comment expresses the sense of many other€
intervews: "              re exhausted but still excited. Yet I see burnout coming.

TH FIST CHNGE FRONT-LIN                                                STAF FACE IN THIR WORK
ENONMNT IS THT                                  THIR CLIENT HAVE A HOST OF SERIOUS
PROBLEMS IN ADDITION TO MENTAL ILS                                                    AN       SUBSTANCE ABUSE.

We asked all 71 respondents to describe their clients who have co-occurring MH/SA
disorders. In most cases ,their descriptions dovetail with those in the literature of
clients with severe mental ilnesses , and substance abuse.

In terms of general demographics , in most programs male clients outnumber females
by at least two to one , and the majority of clients are in their 20' s and 30' s. The
majority are on public assistance , typically Supplemental Security Income and
Medicaid.

In terms of treatment needs , respondents report that their clients have severe , long-
standing ilnesses. The majority are suffering from schizophrenia ,                                and a smaller but
significant number suffer from major or bipolar depression; a quarter of all
respondents reported that some of their clients also have personality disorders.
Clients are using or abusing alcohol (mentioned by 70 percent of respondents),
cocaine or crack (60 percent), marijuana (40 percent), and heroin (13 percent; a
number of people commented that heroin use is on the rise in their areas). Polyabuse
(abuse of two or more substances) is not uncommon.

Chart C shows more characteristics                                   CHT C

mentioned , in descending order by
frequency of mention. Most respondents                                   CLINT CHCISTCS                   MEONE
named two or more of these
characteristics.                                                                   Homelcst rik of bomelesn=
                                                                                   Hitory of ares jai; or prn
                                                                                   Dyfunctona
Respondents mentioned other€
characteristics that make treatment
difficult: long histories of disability and€
                                                                                     in   fa €
                                                                                    - Pb)"icaal abus€
                                                                                   Menta retation

                                                                                   Orgae damage (lier ,   bra)€
deeply entrenched substance abuse;

resistance to treatment (they have
 burned their clinical bridges" by failing
in numerous treatment programs); and extreme social isolation , with little or no
support network of family or friends.

Further complicating treatment for staff, many programs accept clients who are at very
different levels of functioning, from those with a host of severe impairments and a
long history of ilness and dysfunction ,                      to those judged to be capable of living and


   6 In contrast

                    26   of the   32   front- line (only) workers in this study are female.€
             , "





working in the community with minimal support. A few programs treat persons with€
co-occurring MH/SA disorders along with others with mental ilness or a substance
abuse problem only. One program treats clients who are homeless and living at a
shelter , others who are on parole , living in the community, and mandated to attend
and stil others , living in the community, who are clients of the community mental
health center. Most clients have co-occurring MH/SA disorders , but some have only
substance abuse problems.

FRONT-LIN STAF HAVE               MA
                         GOAL FOR CLIENf WI A LONG-
TERM VIW OF RECOVERY. RELATIV TO SUBSTANCE ABUSE, THY
URGE CLIENf TO ACHVE ABSTINNCE BUT PRIVATELY DO NOT
EXPECf MOST OF THM TO ACHVE IT IN TH SHORT TERM.

We asked aU 71 respondents to describe their goals in working with clients€
specifically, what client outcomes they seek to achieve. They mentioned a host of€
changes they would like to attain over a long period of time. Eighty percent of
respondents named at least two goals; 30 percent named four goals. Chart D shows
the most common responses.

In terms of substance abuse problems           CHT D

specifically, most respondents believe
that in the very long- term , sobriety or        GOAL MEONE
abstinence should be a goal , and say that                Long term soriety/absence

this is the goal they " preach" to clients.               Intrea independencc , self.:ffticncyj€
However , as one program director said:                   roping€
We don t feel most people are going to                    Incr menta stbilty, includig€
                                                          complice-         wiLh medcatins€
be abstinent. We assume treatment wil                     Reduce drig/drggg€
be long, term (2 years or more) and€                      Increa . stabilty, better qual . of life€
involve a lot of support and intervention€                Increa self knowedge,undersdig;
in a lot of arenas.

                                                          awnes.
                                                          Incrself=teem, bope


In discussing goals ,
                    respondents                                       we                 iz    thgs..
                                                                                          coliwi
                                                 . Rand                     to ab

repeatedly emphasized that for most of           un
                                                 r=a1 on
                                                      an su            iI           th ne!",
                                                                                00"' trgg
their clients recovery " is a relative term
and wil take years to achieve. When
 asked to name the most important€
. personal attributes staff need to be effective with these clients , the one most
frequently named (by half of all respondents) was " patience.

FRONT-LIN STAF DESCRffE TH APPROACH THY TAK TO HELP
CLIENf AS HOLISTIC, INIVUALIZED , FLXILE, OR CRTIVE
THY SAY 1HT ESTABLISHING TRUST                      WI
                                     CLIENT IS KEY, BUT
VERY DIFICUT TO DO.

We asked all 71 respondents , managers and front- line staff alike , to describe their
approach to working with clients with co-occurring MH/SA disorders. Given the great
                             " "                                                                        , "





 variety in client disabilities , histories , and levels of functioning, it is not surprising to
 learn that approaches are being adapted in a number of ways.

Almost two- thirds of all respondents report taking a "holistic" approach in tring to address
many client needs besides those related to mental illness and substance abuse. Case
management is used in many programs to connect clients with services.

 In addressing the             mental health and substance abuse problems                       of clients through
counseling and education , respondents emphasize compliance with medications
problem solving, and " learning ways to avoid drinking and drugging. " They also try to
build self esteem and a sense of hope , and help clients learn to live independently in
the community.€

Respondents also mentioned other services their clients need , especially in terms of
long- term recovery.

Housing:         Sixty percent of all respondents said that their clients need housing - not only
a roof over their heads , but more importantly, clean , safe , and affordable housing
located in sober living environments , often with supportive services of some kind
available. Many of their clients are living in substandard housing in poor
neighborhoods where drug abuse is prevalent. In such housing, people said , clients
are almost guaranteed to relapse no matter how effective a treatment program is.

Social or recreational activities, including volunteer activities              vocational education or
                                                                                          and


Job-related services:              A quarter of all respondents said that clients need such activities
to facilitate recovery, because they provide structure which is critical to achieving
mental stability and sobriety. We heard many comments such as: " Boredom leads to
substance abuse;     (Clients) need structure and something to do; " and You need to
fil the vacuum that drugs filed .

Aftercare or relapse prevemion programs,                              long term mental health services,
                                                                         and programs
designed specifcally for clients with co-occurrng MHISA disorders: Each of these was
mentioned as a long- term need of clients by 15 percent of all respondents.

Case management is the most common mechanism for connecting clients to services
both in and outside these programs. Two thirds of all respondents reported that case
management is a part of their program.€

Within the strctured activities of their programs, respondents are tring to be flexble and
creative in adaptig their approach to meet the individual needs of clients.


Almost half of all respondents used the word " individualized"                                  to describe their
approach to clients , trying to " blend and adjust to each individual's needs " in order to
be effective; 25 percent named creativity and flexibility as personal attributes needed
to be effective with clients with co-occurring MH/SA disorders: " You must learn to do
things differently, follow your instincts and adapt your approach. " One of the most
        , "           , "€              " "




difficult challenges is that " some (clients) need a certain toughness , others need€
nurturing.€

Adaptations can be as simple as going for a walk to counsel a client who is having
difficulty sitting sti1 , or much broader. For example , we heard comments that while
structure and boundaries are important for clients , rigid adherence to rules and
schedules is often not effective. Most respondents reported that if clients violate rules
regarding abstinence they can lose privileges , but they don t get thrown out
automatically. We use it as a therapeutic tool." Relapses are discussed individually
and in groups to increase clients ' understanding of the causes and consequences of
relapses and how to avoid them in the future. " Slips are allowed " said another
director with gradual attempts at shaping of behavior.

Staff may minimize confrontation , simplify concepts , or proceed very slowly for clients
who have a short attention span , are paranoid or delusional , iliterate , mentally
retarded , or otherwise have difficulties with abstract thought. One of the more
common activities in which these kinds of adaptations are made is 12-step groups.

Many staff report that they routinely seek client feedback on the subjects covered in€
education or counseling sessions , and recreational or social activities. For the most
part , feedback is verbal and informal , although some programs do written client
surveys periodically. Almost uniformly, respondents view client input as valuable if not
crucial in running effective programs with active client participation.

The use of multi- disciplinary staff teams also stimulates flexibility and creativity as staff
share their expertise , experience , and perspectives to come up with ideas about ways
to structure program activities or reach individual clients.

Front-line staff view building trut   and a personal relationship with   clients as ke   to
makig progress but very      difcult to do.


We asked front- line respondents how well they know clients and if it is important to
establish a personal relationship with clients. We found that " building a personal
relationship of trust and respect " was the number one factor they mentioned when
asked to describe " what works " to help clients. However , many would probably agree
with the supervisor in a residential program who said that this is " both the most
important and the most difficult thing " of all to do.

To overcome cultural and other barriers between themselves and clients , especially
suspicion or lack of trust that many clients exhibit , requires a respect for clients as
individuals , and " time , consistency, and a certain chemistry. " Half of all 71
respondents said that being " caring, non-judgmental " and " respectful" towards clients
are attributes of effective staff. Working in teams is also viewed as a plus , as
members share their perspectives on client behavior and ways to break through
barriers , and take over for each other in difficult situations: " I need the team. There
are times I just can t deal with a client , and someone else can step in.
                                                                                     , "





 In terms of activities , music or art therapy, social activities , and recreation are touted€
 as ways of building bridges between clients and staff. Some say that men-only or€
 women-only groups are the best way to discuss certain sensitive issues - sexual abuse€
 for example.€

Success in creating relationships is mixed. As a group, case managers are the most€
likely to say that they know their clients we1l , especially in " their world" (their homes€
their family and friends). Several people commented that case managers are the most€
likely to get closer to clients since they help them with many needs , see clients mostly€
in their homes or the community, and work with them for a long time. Also: " Often€
 the case manager is the only person (clients) know " and                               Lots of what dua1ly

 diagnosed people do drives people away. Case managers wil stick around.€

Other staff, especia1ly counselors , are less likely to know clients we1l , or commented€
that client distrust or dysfunction makes it difficult to establish a relationship. Some€
also are unsure about how to balance professionalism and friendship with clients.€

FRONT-LIN STAF HAVE NO SINGLE OPINION ABOUT " WHT WORK"

TO     HE
        CLIENT. THY DEFIN SUCCES IN RELATIV, SUBJECTIV€
TERMS, AN TAK A LONG-TERM VIW.


Views of front- line staff on " what works " to help clients
, a question that many experts€
urged us to ask , are many and varied: building a personal relationship (mentioned€
previously), being slower and more concrete with clients , providing levels or a€
continuum of servces , working with clients over a long period of time , individualizing€
one s approach , providing activities to replace substance use , providing " structure " or€
 boundaries " and being flexible , creative or eclectic in approach.€

Taking a broader view , we asked a1l 71 respondents how successful they are in€
achieving the goals they have set forth for clients. We found that few programs€
conduct formal evaluations 7 or have data on client outcomes. Therefore , most views€
of success are highly subjective.€

Views. were mixed at best. In terms of the managers , a third said their programs were€
too new to judge success or have had little or no success , 25 percent labe1led their€
programs a success , and the rest said that their programs are able to make some€
progress with some clients , or that attendance and participation rates are good.€

In terms of front- line               staff  , only two labeled their programs an unqualified success.€



   7 Th 

          program with the most formalized evaluation efforts were two affliated with hospitals and a few others with€
some Federal ftmding from HUD, the National Instillle on Dntg Abuse, or the CSAT- CMHS demonstrations. The€
director of one agency, who has done some outcome 
       'alllation.   said that a recent cut in their Federal grant had led to€
the elimination of the evaluation component of the program. Many programs do rOllinely seek diem feedback, however€
either through periodic wn lfen surveys or discllssions.€
                               , "                                          , "





We heard about high drop-out rates in some programs , as much as 50 percent , and€
many people said that only clients who are motivated or "wiling to change " who
stayed with the program , were likely to make progress: "  re able to touch 40
percent of our clients " and         Half drop out ,   but the program is pretty successful for
          " Respondents reportedly have a very difficult time helping clients who are
the others.
the most severely ill , have borderline personalities , or are crack addicts.

Over 50 percent do report taking some satisfaction from seeing a few clients make
progress , or many clients take " baby steps " towards recovery over time: reduced
substance use ,   housing stability and the like. However many people would probably
agree with this member of a continuous treatment team who said I know that any
success will be a long and lengthy process.€
                                                                      , "





                    RECOMMENDA TIONS€
PHS SHOUL DEVELOP A PLA TO INCRE KNOWLDGE ABOUT CO-€
OCCUING MENTAL HETH AN SUBSTANCE ABUSE DISORDERS€
AN THIR TRTMNT AMONG CLINICIAS , OTHR PROFESIONAL€
AN SERVICE PROVIERS.€
This report highlights the tremendous challenges facing staff who work directly with€
persons with co-occurring MH/SA disorders. It reinforces the descriptions in the€
literature of the degree of illness and dysfunction of the clients , and it reveals the lack€
of appropriate education , training, and experience of front- line staff. In terms of€
approaches , it supports the view of one expert we spoke with that right now€
everyone is fumbling around locally with trial and error.€

The PHS funds many programs , noted in the Background , that do or could serve€
persons with co-occurring MH/SA disorders and which routinely provide technical€
assistance or training to their grantees. Some have begun to respond to increasing€
demand from grantees; we understand that the PATH program , the mental health€
servces block grant program , and Health Care for Homeless all provided training on€
co-occurring MH/SA disorders at regional and national conferences in FY 1994.€

The PHS also funds education and training programs for clinicians and other€
professionals. Two respondents in this study benefitted from such programs. One€
received her master s degree thanks to a grant from the National Institute on Alcohol€
Abuse and Alcoholism. The other , a psychiatrist , reported receiving a National€
Institute on Drug Abuse career award in this field; he noted that an added plus of this€
award is that it allows him to do research related to his work. Relatively recent€
educational efforts include the issuance by the Center for Substance Abuse Treatment€
of a special Treatment Improvement Protocol on co-occurring MH/SA disorders , and€
the development by the National Institute on Drug Abuse of an educational videotape.€

We applaud these efforts. However we also point out that they do not appear to be€
coordinated , either between the various offices which have undertaken them or with€
other Federal agencies or other entities who deal with this population. Given the€
growing number of clients with co-occurring MH/SA disorders , their degree of ilness€
and dysfunction , and the inexperience and lack of proper training of the staff who help€
them , we call for PHS to develop a plan to use its existing arsenal of education€
training, and technical assistance resources , and to provide Federal leadership with€
entities outside PHS , to increase knowledge and understanding of co-occurring MH/SA€
disorders among professionals and programs that serve this population.€

The plan should encompass the development of academic curricula , training materials€
for those already in the field , and technical assistance materials. Many experts we€
spoke with for this study ask for strong Federal leadership in this arena. One of the€
most highly respected said , for example: " Training programs are not teaching people
to do this (provide integrated treatment). This is a desperate situation. We have to
train the current workforce , and we have few experts to do it. It looks just as bad for
the future. I can t think of one single clinical training program doing this. " Also , a
meeting last year of the National Association of State Alcohol and Drug Abuse
Directors , National Association of State Mental Health Directors , National Association
of Counties , and SAMHSA resulted in a lengthy recommendation , not yet
implemented , that SAMHSA mount a strong technical assistance and training effort
on co-occurring MH/SA disorders.

We suggest that in developing a plan , PHS col1aborate not only with other
departmental programs serving this population , especial1y the Health Care Financing
Administration (Medicaid), but with State and local grantees , national associations
professional organizations , experts , researchers , and clinicians and practitioners who
have direct experience with this population.

Col1aboration with other Federal agencies that serve this population is especial1y
important , we think: with the Departments of Veterans Affairs , Housing and Urban
Development , and Justice , and with the Social Security Administration. One especially
notable cooperative Federal effort newly underway is the mental health and substance
abuse work group under the auspices of the Interagency Council on the Homeless
charged with developing an action plan in connection with Priority: Home! The Federal
Plan to Break the Cycle of Homelessness.   Some of the action steps initial1y developed
by this work group are consistent with , and indeed support , our recommendation here.

We also suggest that PHS use existing technology (for example , the Internet
teleconferencing, videotapes) to produce and disseminate training and educational
materials at a reasonable cost. Curricula and materials should be disseminated not
only via universities , but through the community col1ege network. Also , resource
centers established in connection with specific departmental programs (the Community
Support Program is one example) are a useful conduit for such information.€

We hope that PHS wil1 find the information we provide in this report useful in€
developing their response to this recommendation.

AGENCY COMMNT

The Public Health Service concurred with our recommendation. Their comments are
attached as Appendix A. They also submitted a number of technical comments on
which we have based some revisions to the text.€
APPENDIX A

 AGENCY COMMNT
( ?

             DEPARTM.E:-T OF HEAl.TH &. HCM,A,,' SER"lCES        ?uolic HeaM Service

4-1-.
                                                                 Memorandum
              MAY 3 0 199€
    Dae

    From     Assistant Secretary for Health€


    Subjec   Of f ice of Inspector General   (OIG) Draft Reports" Services to
             Persons with Dual Disorders: Provider Perspectives
             OEI- OS- 94- 001S0 and " Services to Persons with Dual Disorders:
             Program Descriptions, " OEI- OS- 94- 001S1

             Inspector General, OS€

             Attached are the PHS comments on the OIG draft reports on€
             Services to Persons with Dual Disorders, We agree that a plan€
             for increasing knowledge about co-occurring mental€
             health/substance abuse disorders and their treatment is€
             critical to improving services and service delivery to this€


                                    consideration.
             population. Our comments describe PHS' efforts to address'€
             this issue, In addition , we offer technical comments on both€
             reports for your

                                                (C
                                        Philip R. Lee, M.€
             Attachment
 COMMENTS OF THE PUBLIC HEALTH SERVICE (PHS) ON THE OFFICE OF
 INSPECTOR GENERAL (OIG) DRAFT REPORTS. " SERVICES TO PERSONS
 WITH DUAL DISORDERS: PROVIDER PERSPECTIVES. " OEI-05-94-00150
                              AND
        SERVICES TO PERSONS WITH DUAL DISORDERS: PROGRA
                DESCRIPTIONS. " OEI-05-94-00151

GENERAL COMMENTS€
The OIG draft reports provide the results of the OIG' s survey
of programs that serve people with co-occurring mental health
and substance abuse disorders (co- occurring MH/SA disorders)
and describe the programs and the experiences of program staff
in providing services to this population.
The reports recognize the broad social consequences (i.€
homelessness , violence , crime , the spread of HIV/AIDS
tuberculosis , etc. ) of not adequately treating people who have
a history of substance abuse and mental illness. The personal€
devastation and individual treatment needs should not be€
minimized; but the overall impact of a person' s illness must€
also be viewed in the context of his or her children, family€
and community. Where substance abuse and mental health€
problems are not recognized and treated, there is increased€
stress on family, friends , and care givers. We believe that€
improving collaboration and the exchange of information among€
researchers , program staff, and patients and their families
could help to alleviate these social consequences.
The reports also discuss ways to encourage innovative€
approaches to the development of training programs and€
curricula. Federally- sponsored educational programs usually€
are designed for one profession or another; however,€
profession- specific approaches are not necessarily appropriate
for complex pathologies. Educational programs developed to
train clinicians, other professionals and service providers
should be designed to include both traditional and alternative
therapies. In addition, it is essential that people affected
by co- occurring MH/SA disorders-- and people at risk for co-
occurring MH/SA disorders--be educated as well. Therapies
have a much greater likelihood of being successful when people€
who suffer from co- occurring MH/SA disorders and their€
families are active participants in developing treatment€
modalities.
Finally, the reports stress the importance of training;€
however, we believe the reports should also acknowledge the€
importance of evaluation. Unless we understand what effect€
the training, the work of the therapists, and the availability€
of funding is having on the amelioration of the problem, we€
will continue to operate in the dark. While this aspect is€
painful because it uses some of the resources (fiscal and€
clinical) that could be used to treat patients , it is€
important to find out if the patients are getting well
better, establish how many of them there are , how many   there€
are a year or two after treatment , what treatment is
effective , and exactly how the Federal programs are
cooperating (i. e., how Federal funds are being used)
OIG RECOMMENDATION

      PHS should develop a plan to increase knowledge about
      dual disorders and their treatment among clinicians,
      other professionals, and service providers.

PHS COMMENT
We concur. Individuals with co- occurring MH/SA disorders
present unique challenges for the alcohol/drug abuse/mental
health  (ADM) services field. We agree that a plan for
increasing knowledge among service providers in the ADM
specialty sector and in primary care settings is critical to
improving services and services delivery to this population.
We also agree that all stakeholders, including consumers and
their families, should be included in the development and
implementation of such a plan.

      The plan should encompass the development of academic
      curricula, training materials for those already in the
      field, and technical assistance materials.
PHS COMMENT

We concur. However , before developing new curricula we should
review what currently exists. Some efforts have already been
made in this area. The National Institute on Alcohol Aybuse
and Alcoholism and the National Institute on Drug Abuse have
funded curriculum development and faculty development
proj acts.
The Substance Abuse and Mental Health Services Administration
(SAMSA) has also begun several efforts to improve services
for individuals with co- occurring MH/SA disorders. An Action
Plan (Attachment I) has been drafted which addresses the need
to improve provider knowledge within current agency programs.
In addition, the SAMSA National Advisory Council is planning
a national conference on this issue which is expected to yield
recommendations for action in several substantive tracks,
including education and training. SAMSA Centers are also
engaged in efforts designed to learn more about effective
service provision for this population and to disseminate that
information to the field. (See Attachment II for activity
descriptions. )
In addition, SAMSA' s Center for Substance Abuse Treatment
(CSAT) has been chairing an Interagency Committee on education
and training as part of its training initiatives. There is a
need for skills-based clinical training which is not
specifically mentioned in the OIG reports' recommendations.
CSAT awarded a contract to Lewin-VHI to develop a report on
training needs.

Also, SAMSA' s Center for Mental Health Services (CMHS) , in
collaboration with CSAT , is planning a training curriculum
that could be used for in-service training of an array of
service providers for homeless populations and which focuses
specifically on persons with co- occurring disorders.
In the development of training initiatives it will be
important to collaborate with the professional organizations
which are developing practice guidelines on the appropriate
treatment for these patients. This does not appear                   to be
mentioned in the OIG report. In addition, training materials
must include the development of academic curricula for health
professionals.€
      PHS should collaborate with other BRS agencies,
      statel local grantees, national associations, professional
      organizations, experts, researchers, clinicians and other
      Federal agencies (the Departments of Veteran' s Affairs,
      Housing and Urban Development, and Justice, and the
      Social Security Administration) and consider
      recommendations made by existing reports such as
      "priority: Home! The Federal Plan to Break the Cycle of
      Homelessness. "€
PHS COMMENT

We concur. Coordination of existing resources across HHS
would benefit persons with co- occurring disorders. Perhaps an
HHS Coordinating Group on Co-Occurring Disorders could serve
this purpose.                        However, there are already coordinating groups
in HHS whose focus includes persons with co- occurring
disorders - such as persons with HIV                       AIDS and persons who are
homeless.
We would like to point out that the Department of Veteran
Affairs is represented on the SAMSA National Advisory Council
that is planning the national conference referred to above.
SAMSA will make every effort to include appropriate Federal
Agencies in the planning process and obtain their
participation in the conference.  SAMSA will also disseminate
any recommendations resulting from the conference to these
Federal Agencies and work with them to implement the
recommendations.
As noted above in our comments on recommendations  land  2, we
concur that collaboration with professionals in the field is
necessary to develop the appropriate training materials.
     PHS should use existing technology (e.g. rnternet,

     teleconferencing, videotapes) to produce and disseminate

     training and educational materials through universities,

     community college network, and resource centers.


PHS COMMENT

We concur. We would   encourage producing and disseminating
information through the use of both traditional and innovative
means of knowledge transfer.

